<html>
<title> - ASSESSING THE MERIDA INITIATIVE: A REPORT FROM THE GOVERNMENT ACCOUNTABILITY OFFICE (GAO)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    ASSESSING THE MERIDA INITIATIVE:
                      A REPORT FROM THE GOVERNMENT
                      ACCOUNTABILITY OFFICE (GAO)

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 21, 2010

                               __________

                           Serial No. 111-109

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
57-608                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c4b5c436c4f595f584449405c024f434102">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                   ELIOT L. ENGEL, New York, Chairman
GREGORY W. MEEKS, New York           CONNIE MACK, Florida
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GENE GREEN, Texas                    CHRISTOPHER H. SMITH, New Jersey
GABRIELLE GIFFORDS, Arizona          DAN BURTON, Indiana
ENI F. H. FALEOMAVAEGA, American     ELTON GALLEGLY, California
    Samoa                            RON PAUL, Texas
DONALD M. PAYNE, New Jersey          JEFF FORTENBERRY, Nebraska
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
BARBARA LEE, California
JOSEPH CROWLEY, New York
RON KLEIN, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. Jess T. Ford, Director, International Affairs and Trade Team, 
  United States Government Accountability Office (GAO)...........    10

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................     3
Mr. Jess T. Ford: Prepared statement.............................    13

                                APPENDIX

Hearing notice...................................................    36
Hearing minutes..................................................    37
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida: Prepared statement...........................    38
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    39
Written responses from Mr. Jess T. Ford to questions submitted 
  for the record by the Honorable Eliot L. Engel.................    40


     ASSESSING THE MERIDA INITIATIVE: A REPORT FROM THE GOVERNMENT 
                      ACCOUNTABILITY OFFICE (GAO)

                              ----------                              


                        WEDNESDAY, JULY 21, 2010

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:45 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot L. Engel 
(chairman of the subcommittee) presiding.
    Mr. Engel. The subcommittee will come to order.
    Our hearing today is ``Assessing the Merida Initiative: A 
Report from the Government Accountability Office,'' or the GAO.
    On Sunday, 18 people were murdered in cold blood at a party 
in northern Mexico. This came just 3 days after a car bomb 
killed several people in Ciudad Juarez. And it came a week 
after the Ninth U.S. Circuit Court of Appeals ordered 
immigration judges to seriously consider granting asylum to 
Guatemalan women who fear they will be murdered in a country 
where more than 3,800 women have been killed since 2000.
    Nobody can bring back the lives of the many people 
tragically killed through drug-related and other violence in 
Mexico and Central America. But if we are to avoid future 
tragedies of this magnitude, we must redouble our efforts to 
support a holistic security strategy.
    Such a strategy must confront drug cartels head-on while 
also investing in drug and violence prevention and treatment 
programs, both in Latin America and here at home. One such 
effort that I have championed here in Congress is the Merida 
Initiative.
    Today, the Government Accountability Office is releasing a 
report that I commissioned, along with Ranking Member Mack, on 
the Merida Initiative and the Central American piece of Merida, 
which is now known as the Central America Regional Security 
Initiative, or CARSI.
    Let me start with the good news from the report.
    In December, the GAO issued an interim report on the slow 
speed of Merida assistance to Mexico and Central America. Since 
then, the GAO reports that the Obama administration has picked 
up the pace in getting essential equipment and training to our 
partners in these countries.
    I commend President Obama and Secretary Clinton for cutting 
through our Government's red tape to get the Merida Initiative 
moving. In the coming months, we must continue to expedite our 
assistance to Mexico and Central America.
    On a more disappointing note, however, today's report notes 
that, nearly 3 years and $1.6 billion after the announcement of 
the Merida Initiative, our counternarcotics assistance to 
Mexico and Central America lacks fundamental measurements of 
success.
    Specifically, the GAO found that the State Department's 
performance measures, and I quote from the report, ``do not 
provide measurable targets and do not measure outcomes.'' As 
the GAO report notes, and I quote again, ``Without targets to 
strive toward, State cannot determine if it is meeting 
expectations under the Merida Initiative.''
    Now, I just want to say this, and I want to say it very 
emphatically: Our long history of counternarcotics spending in 
the Western Hemisphere demands that we had better define our 
goals.
    You all have heard me express my concerns in this 
subcommittee about coordination of the Merida Initiative. The 
GAO report notes that tracking Merida funds is difficult, as 
each of the three State Department bureaus managing these funds 
has a different method. It is really incredible to me that 
there is still no consolidated database for tracking these 
funds. If the State Department cannot track its own funding, 
then how can we in Congress exercise appropriate oversight? We 
can and must do better than this.
    I have long called for a coordinator at the State 
Department for our security programs in the Americas, and this 
is just another reason why we need it. I have had this 
discussion with Secretary Clinton, and she was favorable. I 
hope we can move forward and get a coordinator for our security 
programs in the Americas. This would help us in Merida funding; 
it would help us understand what is happening with the funding. 
It is ridiculous to keep calling the State Department and, each 
time, getting a different person to find out what is really 
going on with Merida.
    With regard to the Central America Regional Security 
Initiative, or CARSI, I was stunned to learn that the narcotics 
affairs section at the U.S. Embassy in Mexico City serves as 
the account manager for funds destined for Central America. I 
cannot understand why this extra layer of bureaucracy is 
needed.
    And, finally, unlike Mexico, in Central America there is no 
formal coordination mechanism in place between U.S. agencies 
and their host-government counterparts working on CARSI 
implementation. This cannot continue and must be improved.
    I would like to thank the Government Accountability Office 
for its excellent report. In addition to Mr. Ford, who is 
testifying here today, I greatly appreciate the contributions 
from Juan Gobel, Marc Castellano, Marisela Perez, Erin Saunders 
Rath, and Judith Williams.
    Thank you.
    And I now call on Mr. McCaul for his opening statement.
    [The prepared statement of Mr. Engel follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. McCaul. Well, thank you, Mr. Chairman. Thank you for 
holding this hearing on a foreign policy issue that I consider 
to be one of the most important facing the United States and 
Mexico.
    I remember years ago traveling down to Mexico City with--I 
see Congressman Cuellar just arrived. We visited with newly 
elected President Calderon, talked to him. He said security was 
his number-one issue. And he said, ``But I need your help,'' 
and, in a very bold way, asked for military assistance from the 
United States. And I say that was bold for a Mexican President 
to be able to make that ask. I am glad to say that we met that 
request by President Calderon, and we began the Merida 
Initiative.
    Since that visit, though, about 25,000 people have died in 
Mexico at the hands of the drug cartels. In recent weeks, we 
have seen that violence escalate, the U.S. Consular Office in 
Juarez being under attack, under siege; Nuevo Laredo; and this 
past week, as the chairman referenced, a car bomb, in a sort of 
Iraq-Afghanistan style, went off in Juarez, just south of the 
border from El Paso, Texas, my home State.
    Their expanding expertise reinforces the belief that the 
cartels are actively working with terrorist organizations. And 
it is crucial that the United States stand strong in its 
commitment to dismantle the drug trafficking organizations and, 
in doing so, that we uphold our commitments to the President of 
Mexico, as he aggressively attacks the drug trafficking 
networks.
    He does not take this lightly, nor do I. We all know how 
violent the situation is and how dangerous it is for the 
Mexican administration to be cracking down on these very 
dangerous elements that are exporting drugs into this country, 
and violence.
    The last hearing we held on this topic highlighted the slow 
manner in which the U.S. assistance is reaching the programs 
established under the Merida Initiative. I appreciate the GAO 
coming here to testify, to report on possible improvement in 
this area, as well as better coordination between U.S. agencies 
supporting the Merida Initiative and with our Mexican 
counterparts in securing our southern border against illicit 
activity.
    This coordination between the United States and Mexico 
needs to be institutionalized as a standard of our bilateral 
relationship to guarantee that progress cannot be undone. We 
need to strengthen security of our borders, enforce the laws we 
have on the books, and utilize the funds we have appropriated 
for the Merida Initiative to address this violence and illegal 
activity.
    And as we hear from the GAO's witness on the 
recommendations for better performance metrics in the Merida 
Initiative, I will also be looking to hear how our current 
strategy will address the balloon effect of the drug trade.
    I must express my disappointment, as well, to the chairman 
that, since this initiative has begun, only 46 percent of the 
funds have been obligated and only 9 percent of those funds 
have been expended. I understand that this takes time. I 
understand that it takes time to build helicopters and military 
hardware. But I hope, Mr. Chairman, for the sake of our two 
countries, that we can expedite this very important initiative.
    And, with that, I yield back.
    Mr. Engel. Thank you, Mr. McCaul, for an excellent 
statement.
    And I want to also add my voice to my admiration for 
Mexican President Felipe Calderon, who I think has done a 
really excellent job in confronting the drug cartels and 
letting them know that violence and drug dealing is 
unacceptable, and we are not going to just look the other way 
and pretend it doesn't exist.
    So, with that, I call on Mr. Sires for an opening 
statement.
    Mr. Sires. Thank you, Mr. Chairman, for holding today's 
hearing.
    Mr. Ford, nice to see you again.
    Mr. Ford, I remain extremely concerned about the escalating 
violence within Mexico and the precipitating violence against 
American citizens in and around our own borders. The revised 
strategy of the Merida Initiative has the potential to improve 
programs already on the way and to decrease crime and violence. 
However, my colleagues and I on this subcommittee have heard 
numerous testimonies accounting the historical slow 
distribution of the Merida assistance. And I fear that, while 
this new strategy may provide the positive changes we need to 
decrease violence, without changes in the distribution of 
assistance this new strategy may not reach its full potential.
    It is estimated that of $1.6 billion in Merida Initiative 
funds intended to actively support projects in Mexico and 
Central America, only about 46 percent of the funds have been 
obligated, and only 9 percent have been expended. In recent 
months, we have seen some equipment assistance and training 
provided, but there still remains a much larger portion of 
assistance that has yet to be allocated, making it extremely 
difficult to fully understand the results the Merida Initiative 
could provide in both countries. We must continue to find ways 
that the Merida assistance can be allocated in the most 
efficient and responsible fashion.
    We must also continue to work with the Mexican agencies so 
that we may better understand their needs and ensure 
improvements are made within their agencies in order to 
guarantee transparent allocation of funding. It has come to my 
attention that the narco groups have circumvented the Mexican 
Government's authority across agencies. And we must ensure that 
the new Merida strategy aims to reduce this phenomenon and 
decreases bloodshed in both countries.
    Again, thank you, Chairman Engel, for holding this hearing. 
And I look forward to Mr. Ford's testimony.
    Mr. Engel. Thank you, Mr. Sires.
    Ms. Lee?
    Ms. Lee. Thank you, Mr. Chairman. Thank you very much for 
this hearing.
    And I want to welcome Mr. Ford to this committee. And I 
want to thank you and your team at GAO for your efforts in 
putting together this very thorough report.
    Today's hearing is really very timely, as we work to 
address the vicious spread of illicit drug use and 
narcotrafficking in the United States and Mexico, which 
continues, and increasing so, to devastate families and 
communities at home and abroad. This report makes it obvious 
that we need better monitoring and evaluation of our 
counternarcotics assistance programs, which, as many of us 
know, is true of our foreign aid programs more generally.
    However, I have been critical, myself personally, from the 
start of the initiative, in that it has focused overwhelmingly 
on military aid and supply-side counter-drug efforts. If we 
continue to operate in a vacuum and ignore the root causes of 
drug trafficking and related violence, then we will continue to 
see our counternarcotics efforts fail. We need to begin to 
shift amounts of our foreign counter-drug assistance dollars 
away from military and supply-side policing efforts toward 
judicial reforms, institution-building, human rights, and at-
risk youth programs.
    Also, I am a member of the Appropriations Subcommittee on 
State and Foreign Ops, and I requested that at least two-thirds 
of our ESF and our INCLE funding in the Fiscal Year 2011 
approps bill go toward good governance, rule of law, and human 
rights activities.
    Also, we need to aggressively and holistically address drug 
use here in our own country at home and the societal harm that 
drugs continue to cause. I support the bill that Chairman Engel 
has introduced, the Western Hemisphere Drug Policy Commission 
Act, which passed the House in December. And it would create a 
commission to evaluate not only our supply-side counter-drug 
strategies but best practices around the world for demand-side 
policies, as well.
    Finally, let me just say, Mr. Chairman and Mr. Ford, I 
think we need to aggressively combat illicit arms trafficking 
from our own country, which any expert in the region will tell 
you is contributing significantly to the spiraling violence 
that we are witnessing today. I wish we could reinstate the 
assault weapons ban.
    Thank you very much.
    Mr. Engel. Thank you, Ms. Lee. And I agree with you about 
the illicit gun trafficking. That is something that we have to 
deal with.
    Mr. Green?
    Mr. Green. Thank you, Mr. Chairman, for holding this 
hearing today.
    I want to thank Director Ford for the GAO report and for 
appearing before our committee today.
    Almost daily, my hometown newspaper, the Houston Chronicle, 
publishes stories on the violence taking place across the 
border in Mexico. I am sure many of you have learned of the 
senseless killing of 17 people this past weekend in Torreon, 
Coahuila, a Mexican state that borders the Rio Grande River. 
Media records indicate that the killings are believed to be 
connected to the growing rivalry between two of Mexico's 
largest drug trafficking organizations, the Gulf Cartel and the 
Zetas.
    Last month, Rodolfo Torre Cantu, the leading candidate in 
the governor's race in the Mexican state of Tamaulipas, which 
also borders Texas, was assassinated. It has been reported that 
the murder of Dr. Torre Cantu was also connected to the drug 
war and the rivalry between the Gulf Cartel and the Zetas.
    I am sure everyone is well aware of the murders of Lesley 
Ann Enriquez, a staff member at the U.S. Consulate in Ciudad 
Juarez; her husband, Arthur Redelfs, an El Paso sheriff's 
deputy; and Jorge Alberto Salcido, the husband of a Mexican 
employee at the consulate, this past March. These murders are 
also believed to be linked to drug trafficking organizations.
    The Congressional Research Service has reported that, in 
2008, 5,100 people were killed in drug-trafficking-related 
violence in Mexico. In 2009, that number grew to 6,500. 
Understandably, people in our district and throughout the 
Southwest are very concerned about this violence and its 
potential to spill over into the United States.
    Almost 3 years ago, the United States and Mexico agreed on 
the Merida Initiative to stem the tide against organizations 
like the Sinaloa and Gulf cartels, which are responsible for 
bringing hundreds of tons of cocaine and heroin into this 
country and for eroding civil society in Mexico. Similar drug 
trafficking organizations are producing similar results in 
Guatemala, El Salvador, and Honduras.
    This Congress and the American people are expecting 
results, and we cannot afford to allow damaging effects of the 
illicit drug trade and its related violence to continue. We 
cannot allow further delays in Congress's efforts to provide 
support to our neighbors. We cannot wait for months at a time 
to go by, due to a slow negotiation between agencies.
    This is one of the paramount security concerns of this 
country and our people. We need results, and we need tools and 
performance measures, and we need targets to strive toward. 
This is necessary if we want to know if we are even winning 
this war or if we need to examine this matter further and 
redouble our efforts.
    And, again, Mr. Chairman, thank you.
    And, again, Director Ford, thank you for being here.
    Mr. Engel. Thank you, Mr. Green.
    It is now my pleasure to call on Mr. Cuellar, who is not a 
member of the committee but has done a lot of work with me on 
these issues. And he chairs the Committee on Homeland 
Security's Border, Maritime, and Global Counterterrorism 
Subcommittee. And we held a joint hearing, this subcommittee 
and his subcommittee.
    So, welcome, Mr. Cuellar. And you may make an opening 
statement.
    Mr. Cuellar. Thank you very much, Mr. Chairman. I 
appreciate the leadership that you have taken on the Merida 
Initiative. And, of course, thank the ranking member from 
Texas, also, and the members of the committee for allowing me 
to be here.
    Mr. Chairman, I think one of the things we have to keep in 
mind--and, as you know, I am from Laredo, Texas. I live on the 
border. My brother is the sheriff down there on the border 
itself. He has been doing narcotics with the State for about 27 
years before that. So I am very familiar with what is happening 
in Mexico.
    The bottom line is, Mr. Chairman, I think one of the 
things--and yesterday I was on a panel with the Mexican 
Ambassador, and I know he doesn't like it when I say this, but 
I think Mexico is where Colombia was in the 1980s, 1990s, 
whether we say no or yes to that. But the situation is, one 
thing we learned from there is that this is going to be a long-
term battle. It is not going to happen overnight, where we are 
going to win this.
    And this is why these performance measures are so 
important, setting the goals, making sure that we address the 
goals so we know whether we are winning or not. Because it is 
going to take a long time.
    I know we have some friends from SEDENA coming in tomorrow 
to talk to us, and we will be talking to them. And I understand 
what Ms. Lee is saying that, I think the first part of Merida 
was on the military, but now we have to go into what we call 
institution-building, the capacity-building, making sure the 
judiciary system works well, making sure that the prisons, the 
prosecutorial system, and, of course, professionalizing the 
police.
    If you look at a prosecutor on this side, that prosecutor 
will have about at least a 95 percent chance of prosecuting 
somebody. In Mexico, if you look at it, if they get caught--if 
they get caught--and put in the legal system, the prosecutor 
has less than a 2 percent chance.
    So, therefore, in order to build up the institutions, it is 
going to take time. It is going to take time. And as we build 
the police force and as we start looking at the prosecutorial 
system and, of course, the judiciary and the prison system, all 
of this is going to take time.
    And I think this GAO report is important because we need to 
know what are the--not the big goals of the Merida Initiative 
is, but what are the goals that we want to measure, and what 
measures are we going to be using to measure those goals.
    Otherwise, we won't be able to--you know, we can talk about 
measuring activity. How much money have we spent? Nine percent. 
How much has been obligated? Forty-something percent. I 
understand, like Mr. McCaul and the chairman said, you know, it 
takes time to buy helicopters, it takes time to do all this, 
but eventually we are measuring activity--that is, buying the 
equipment.
    But I think what is important is, are we winning down 
there? Because if they win down there, if they are successful, 
and for us on the border, we live on the border, we have our 
families there, we drink the water, breathe the air down on the 
border, we want to make sure that that violence doesn't spill 
over.
    So, again, Mr. Chairman, I want to thank you and your 
committee for the leadership that you are taking on this Merida 
Initiative. Thank you.
    Mr. Engel. Thank you very much, Mr. Cuellar. We are happy 
to have you with us today.
    I am now pleased to introduce our distinguished witness 
today, Mr. Jess Ford. Jess is the director for international 
affairs and trade at the Government Accountability Office (GAO) 
where he has worked since 1973. He joined GAO in 1973 and has 
worked extensively in international affairs, the national 
security affairs area, concerning trade, foreign assistance, 
and foreign policy issues. He has managed GAO audits of the 
Agency for International Development, the State Department, and 
the Department of Defense.
    In January 1994, Mr. Ford was selected into GAO's Senior 
Executive Service and is currently director, International 
Affairs and Trade. He has directed the completion of numerous 
studies on U.S. National security issues, foreign assistance, 
counternarcotics, border security, and foreign affairs 
management activities, and has testified before Congress over 
40 times on these topics.
    So, Mr. Ford, welcome to the subcommittee. We are all ears. 
Obviously, the GAO had an important role to play in this 
report, and we are very anxious to hear from you.

STATEMENT OF MR. JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS 
AND TRADE TEAM, UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE 
                             (GAO)

    Mr. Ford. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss U.S. 
support to Mexico and Central America on the Merida Initiative.
    As you mentioned, crime and violence in Mexico and Central 
America has continued to increase in recent years and poses a 
threat not only to those areas but also to the United States, 
particularly along the U.S.-Mexican border.
    To address this growing narcotics and crime issue, in 
October 2007 the United States and Mexico launched the Merida 
Initiative, a $1.6 billion effort aimed at supporting law 
enforcement. The Department of State manages the Merida 
Initiative and, in cooperation with several other U.S. 
agencies, is responsible for its implementation.
    My remarks today are based on our report, which is released 
today, entitled, ``Merida Initiative: The United States Has 
Provided Counternarcotics and Anticrime Support but Needs 
Better Performance Measures.''
    I plan to focus on three topics: First, the status of the 
Merida program implementation; secondly, coordinating 
mechanisms that are in place for the Merida program; and, 
third, what the State Department strategy for implementation is 
for the Merida program.
    In brief, Mr. Chairman, we found that, while the United 
States has provided assistance, better performance measures are 
needed to improve the management and accountability of the 
Merida Initiative.
    The United States has delivered various forms of equipment 
and training under the Merida Initiative. As was mentioned by 
several members, as of March 31st of this year, 46 percent of 
Fiscal Year 2008 and 2010 moneys have been obligated for this 
program, and approximately 9 percent has been expended. This is 
an improvement from what we reported back in December of last 
year.
    In Mexico, the United States has delivered items including 
five Bell helicopters, biometric equipment, immigration 
computer equipment, software, laboratory equipment, and 
canines. In addition, the United States has assisted in the 
training of over 4,000 Federal police recruits in Mexico, has 
established a law enforcement academy in Mexico. And, in 
Central America, it has delivered some forms of equipment, 
vehicles, and training designed to address the crime and gang 
problem in those locations.
    While the pace of delivery has been slowed by a number of 
implementation challenges, it has increased, as I mentioned, in 
the last 6 months. Deliveries of equipment and training have 
been delayed by challenges associated with insufficient numbers 
of staff to administer the program, negotiations on interagency 
and bilateral agreements, delays in the procurement processes 
for some forms of equipment, some changes in local governments 
which slowed the delivery of equipment, and funding 
availability. U.S. agencies are working to address these 
challenges, particularly the Embassy in Mexico City and in 
Central America locations, who are attempting to expedite the 
delivery of assistance.
    The State Department has primary responsibility for 
coordinating the Merida Initiative, which has diverse program 
components that are being implemented by a wide range of U.S. 
agencies under the leadership of the State Department. Although 
State has not comprehensively documented its coordinating 
structure for Merida, we were able to identify several of the 
mechanisms they put in place to coordinate the program.
    At the highest policy level, the National Security Council 
is, of course, the primary agency for coordinating policy-level 
efforts with Merida. Within the State Department, the Deputy 
Assistant Secretary for North America and Western Hemisphere 
Affairs is the principal Merida coordinator. However, other 
State Department offices, such as the Bureau of International 
Narcotics and Law Enforcement and other bureaus within the 
State Department, also have focal points who are involved in 
the implementation of the Merida Initiative.
    Similarly, at the Embassy level, there are several 
coordinating mechanisms that have been put in place, both 
internally, to coordinate all of the agency efforts at the 
Embassy level, and a bilateral coordinating mechanism with the 
Mexican Government, which we had an opportunity to participate 
in during our visit there back in March.
    At this point, there is no formal coordinating mechanism 
for the Central American aspect of the Merida program. And we 
are waiting to see how the administration will announce the 
strategy under CARSI and what type of mechanisms they may put 
in place to coordinate the program once that gets under way.
    Finally, Mr. Chairman, I want to talk about the lack of 
performance measures for the program.
    Earlier this year, the United States and Mexico announced a 
new strategy predicated on four goals: First, to disrupt 
criminal groups; secondly, to reform rule of law and respect 
for human rights; third, to create a 21st-century border; and, 
fourth, to develop strong and resilient communities.
    While the State Department has developed some performance 
metrics for the delivery of assistance, we found that no 
performance metrics have been established for any of these four 
goals to date. For example, the State Department's strategic 
documents do not include performance measures to indicate 
progress toward achieving any of these goals or timelines for 
all future deliveries and completion of Merida program moneys.
    Our prior work has shown that including these types of 
elements is important because it helps decision-makers 
determine whether or not the program is being successful and 
whether or not adjustments may need to be made if things are 
not working in accordance with what the expectations of our 
Government are.
    In general, State Department's performance measures do not 
align with the existing goals, do not establish targets to 
measure against, and do not discuss what the outcomes are that 
are expected under the programs. To address this issue, we add 
in a recommendation in our report that the State Department 
establish these goals. And they have told us they are in the 
process of attempting to do this.
    Finally, on the issues of timelines, we found that the 
State Department has developed some timelines on deliveries of 
equipment and training, but they do not have, at this point, a 
comprehensive set of timelines for the delivery of equipment or 
training for the entire program.
    Again, we recommended in our report that they establish 
such timelines, again, so you have a better understanding of 
when things will be delivered, what the schedule looks like, 
and, if they are going to make adjustments, you will be in a 
position to understand what the adjustments are. Again, the 
State Department in their comments to us on our report 
indicated that they planned to address this issue and establish 
better timelines for the delivery of both equipment and 
training.
    With that, Mr. Chairman, I am going to conclude and try to 
answer any questions that you may have.
    [The prepared statement of Mr. Ford follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. Thank you very much, Mr. Ford.
    Let me start with this. In your report, you argue that the 
State Department's performance metrics for the Merida 
Initiative do not provide measurable targets and do not measure 
outcomes.
    Can you give us examples of what specific targets and 
outcomes you think should be measured by the State Department 
in evaluating Merida? In other words, how should we define 
success?
    Mr. Ford. Okay, I think that is an excellent question. Let 
me start with the basics first.
    We haven't seen any statements of how they are going to 
measure success under these new four objectives that they just 
established with the Mexican Government. So I can only 
notionally answer this in terms of what would be the kind of 
metrics one might look for. I can't tell you that these are the 
ones being considered by the administration at this point. So I 
need to make that clear.
    I mean, we have worked in the counter-drug area for years 
at GAO, and there are areas where one could reasonably see 
potential goals and objectives that can be measured to try to 
judge the success of a program.
    So, in the case of Plan Colombia, the goal was established 
to try to reduce the level of cultivation of coca plants in 
that country and the potential for production of cocaine over a 
specified period of time. Specifically, it called for a 50 
percent reduction over 6-year period.
    We wrote a report on that in 2008, and we found part of the 
goals were achieved in the area of poppy cultivation, and that 
the goals for coca cultivation were not achieved, although 
there were reductions. The most recent data issued by the ONDCP 
indicates that, as of 2008, there has, in fact, been a greater 
reduction in the amount of cocaine that can be produced.
    Those metrics are available. There are numbers you can 
measure against them, and you can track the progress on a year-
to-year basis. Now, that is just a notional example based on 
the Colombia program, and I am not suggesting that that would 
be one you would apply here in Mexico.
    But the important point here is, you want to establish a 
goal. You want to establish a benchmark you are going to 
measure against. You want to establish a way of tracking that, 
a target that you want to establish. And that helps one 
determine whether or not you are moving the ball forward and 
whether you are seeing progress. So that is notionally how we 
see how you might be able to determine whether this program is 
moving forward or not.
    Mr. Engel. Thank you.
    In the report, you say that tracking Merida funds is 
difficult because each of the three State Department bureaus 
managing Merida funds has a different method for tracking. And 
you note that the State Department currently has no 
consolidated database for these funds. I mentioned that in my 
opening remarks.
    If the State Department can't even keep track of its own 
funding, how can Members of Congress exercise oversight of the 
Merida Initiative? This is obviously a serious problem. How 
serious do you think it is? Does it go beyond Merida and impact 
on our other foreign assistance programs? And, if so, what 
needs to be done to fix this?
    Mr. Ford. Okay, let me start by saying, yes, in fact, it is 
a challenge for the State Department to provide, particularly, 
real-time information on the current status of funding 
obligations, expenditures, and also a delivery schedule on 
equipment that is going to be provided over a specified period 
of time.
    With regard to the funding part of this issue, the State 
Department's accounting system is not set up based on a concept 
of programs. It is set up based on a concept of the funding 
accounts that the Congress appropriates the money under. So, 
for example, Congress provides money under the Economic Support 
Fund concept. They provide money under the INCLE concept, which 
is counternarcotics money that goes to INL. They provide money 
under other budget accounts. And that is the way the State 
Department's accounting system tends to track money, in terms 
of obligations and expenditures.
    What they do not do--and I can certainly say this for 
Merida, and I can't say conclusively for other programs, 
although I have reason to believe it is true, as well--is that 
for programmatic programs that Congress puts out, they don't 
have a readily available system to track, at a program level, 
what obligations and expenditures are. And that is what the 
problem is with the Merida program.
    As we mentioned in our report, you have three different 
bureaus in the State Department tracking money that Congress 
has provided. Part of it is FMF money, part of it is the INCLE 
money, and part of it is the ESF money that Congress has given 
under this program. They have three different bureaus tracking 
it. They don't all have the same process in place. They are 
trying to put in place a spreadsheet, for lack of a better 
term, that will enable them to get this information on a more 
real-time basis so that they can give you answers to the 
questions when you call them and say, ``Where do we stand as of 
today?''
    I brought an example. This is not a funding example, but 
this is a spreadsheet that State Department created for the 
delivery of their equipment to Mexico. And it is fairly 
detailed. It gives you a good idea of what they have already 
delivered and what they plan to deliver. But it is not 
comprehensive, and it is something that they just put together 
based on a spreadsheet. It is not based on any system they have 
in place.
    Mr. Engel. Thank you very much.
    Mr. McCaul?
    Mr. McCaul. Thank you, Mr. Chairman.
    And, Mr. Ford, thank you for your testimony.
    This is not all good news. There is no performance metrics, 
or none have been developed, for any of the four goals stated? 
Is that your testimony?
    Mr. Ford. That is my testimony, but I want to add 
something, if I might.
    The original goals established under the Merida program in 
2008 are different than the ones we have now. There are some 
similarities. Those goals were more directly related to law 
enforcement issues, interdicting drugs, supporting law 
enforcement.
    At that time, the State Department did, in fact, begin to 
develop some performance metrics based on those goals. Now, we 
critique some of those in our report. We said the goals that 
they put in place, some of them were fine; others, they didn't 
have benchmarks, they didn't know what the starting point was. 
Some of them didn't have targets, so you didn't know--they had 
a good goal, but they didn't know what the target was, how far 
along do we need to be before we achieve something. So we 
critiqued that in our report.
    Unfortunately, what the State Department has done is, they 
developed those on the old goals, and they haven't yet 
developed any for the new goals. So that is why we are in an 
awkward situation, where we know they have tried to do this 
when they started the program, but now they are evolving into 
something new and we haven't seen it.
    Mr. McCaul. And there are three different bureaus tracking 
the funding, according to your testimony?
    Mr. Ford. Yes.
    Mr. McCaul. How do you propose to fix that?
    And I say that because we appropriated this money in Fiscal 
Year 2008, $1.32 billion. Only 46 has been obligated; only 9 
percent has been expended. In the current budget request for 
2011, we have an additional $480 million. And yet we can't seem 
to move this thing forward.
    Mr. Ford. Okay, you know, I am not the administration, so I 
am going to try to give you my perspective based on our work.
    Mr. McCaul. I appreciate that.
    Mr. Ford. I think in the beginning of the program there 
were a lot of organizational issues that needed to be dealt 
with. We didn't have many staff to administer the program in 
Mexico, for example. The NAS down there, I think we had about 
15 people, and now they are up to about 50. So part of it was 
you just didn't have enough people to administer the program.
    Then another problem was, we needed to sign letters of 
agreement with the Government of Mexico, which authorizes the 
exchange of the equipment based on certain laws and everything 
that have to be met in our Government and in their government. 
For the last two letters of agreement, it took an inordinate 
amount of time for them to finalize them.
    The first time they did this, it was our understanding that 
it was because the two governments had not had a major program 
expansion like this, and it was just a case of both governments 
understanding the terminologies and what everybody had to do. 
And that kind of explained why there was a delay the first go-
around.
    The second go-around, I can't explain why there were 
delays. But we know that the second letter of agreement, which 
was just signed in May, which obligated another $200-some-odd 
million, that agreement took several months. And we don't know 
the reason why that took as long as it did.
    And then you have the issues related to procuring major 
pieces of equipment and how long it takes. Like Black Hawk 
helicopters, you know, it takes 18 months or more----
    Mr. McCaul. Can I ask you about that? I mean, we just can't 
afford to delay anymore. There is a crisis going on on the 
border and in Mexico.
    And, you know, the helicopter issue is just one example. 
When we talk to the manufacturers, they say, ``Sure, we can 
build them.'' But there is a delay, as you testified to, in the 
procurement process. What can we do to expedite that?
    Mr. Ford. I am not sure for the big-ticket items like the 
Black Hawks. It is not clear to me what can actually be--they 
have to follow the procurement rules that are specified by DOD 
and by law. I don't have an answer for how they can more 
quickly acquire them.
    I do know the State Department attempted to finance, I 
think, three of the Black Hawk helicopters without going 
through the FMF process that DOD manages, and that their goal 
was to acquire those Black Hawk helicopters, three of them I 
believe, more quickly than they could if they went through the 
FMF process.
    Mr. McCaul. My time is running out, but I just wanted to 
end on this question. There has been some reference to 
Colombia. How would you compare--now, Plan Colombia actually 
eventually was a successful model. Are there lessons learned 
that we can take from what we did in Colombia to what is 
happening now in Mexico?
    Mr. Ford. Well, I believe, based on our work there, that--I 
am going to sort of mirror what Congressman Cuellar said. I 
think that we need to accept the fact that it takes a while for 
these things to turn around.
    The beginning years of Plan Colombia, we had a lot of the 
same sorts of problems that we are now talking about in Mexico. 
We had problems with getting the equipment down there on a 
timely basis. We had problems in being able to train the 
Colombian police and the Colombian military to use the 
equipment once we got it to them. We had problems with 
negotiating agreements with the Colombian Government to ensure 
that human rights were going to be honored as we increased our 
security assistance down there.
    There were a lot of what I would characterize as early 
planning and implementation challenges in Plan Colombia. And if 
you had measured that program in the first 2 or 3 years of its 
existence, some of the things that I am reporting now probably 
would have--you know, that is what happened then.
    Eventually, we were able to turn that around, because we 
did develop institutional capacity down there, not only with 
the security forces but also with their judiciary and some of 
the civil side. And that led to more successes, you know, in 
terms of stabilizing that country.
    So I am not saying that is a model, but I will say that I 
believe patience is needed if we are going to try to change the 
dynamic in Mexico in a manner that will reduce violence and 
lessen the threat to our border.
    Mr. McCaul. Thank you.
    Mr. Engel. The gentleman's time has expired.
    Mr. Sires?
    Mr. Sires. Thank you for your testimony, Mr. Ford.
    The shift away from military assistance toward a greater 
assistance for civilian police training, do you see this 
improving our ability to spend the money the right way, or do 
you think it is going to be a hindrance, the shift away from 
the fact that it is not as concentrated on the military?
    Mr. Ford. Well, that is hard to argue, at this point. I 
mean, let me say it this way: I think anything we do to improve 
the law enforcement capability in Mexico is going to be a plus. 
Spending resources on that and ensuring that we get what we pay 
for and that the Mexican Government follows through with 
building that capacity, I see that as a value to what we want 
to achieve there.
    I can't really comment on whether or not a shift from the 
military to law enforcement is a good thing or a bad thing. I 
just think that supporting the law enforcement community down 
there is important, and if we are going to do that, we just 
need to make sure that we do it effectively.
    Mr. Sires. And you said we haven't spent any money on the 
rest of the other countries? There is moneys in there for some 
of the other Central American countries. Has any money been 
spent?
    Mr. Ford. Yeah. It is in our report. I am going to refer to 
that.
    Again, this is as of March 31st of this year. For the 
Merida aspects of Central America, we had obligated about $65 
million, which is about 25 percent of the amount that has been 
allocated by Congress. And they expended approximately $20 
million, which is, oh, maybe 8 percent. That is where we are as 
of March.
    Mr. Sires. Are we encountering the same problems there 
also?
    Mr. Ford. We are encountering--yeah. Yes. The answer is, 
yes, we are, the same problems in terms of coming up with 
delivery schedules that allow us to get the programs up and 
running. We are running into the same issue.
    The difference is, in Central America, we are not spending 
a lot of money on hardware, like helicopters and things like 
that. A lot of the money is for technical assistance and 
training for law enforcement in those countries.
    Mr. Sires. On that spreadsheet that you showed before, are 
there fixed dates when certain things should be achieved or 
anything like that?
    Mr. Ford. With regard to items that are pending, they 
report it three different ways. They have some by month, by 
October 2010. They have some by 2010 or 2011. And they have a 
couple of cases when they have a specific date.
    Mr. Sires. That is just reporting, but it is not a goal?
    Mr. Ford. No, this is their planned schedule for delivery.
    Mr. Sires. Thank you, Mr. Chairman. I don't have any more 
questions.
    Mr. Engel. Okay, thank you, Mr. Sires.
    Mr. Green?
    Mr. Green. Thank you, Mr. Chairman.
    Director Ford, President Calderon's government has expanded 
its cooperation with the United States to a level unprecedented 
in our bilateral relations historically. And there appears to 
be more information-sharing and true partnership with Mexico in 
the fight against drug trafficking.
    Can you characterize the existing level of cooperation with 
Mexico? And I don't know if you have a historical perspective. 
Do these changes extend across the breadth of the working 
relationships with the various ministries in Mexico, or is it 
just certain ones that we have better luck with?
    Mr. Ford. Well, first of all, let me comment sort of 
broadly, since we issued a report in 2007 on the 
counternarcotics program in Mexico, which was pre-Merida, and 
the level of our effort at that time was much smaller than it 
is today.
    I can say, based on all of our meetings in Mexico, meeting 
with not only U.S. officials, including all of our law 
enforcement components, of course the Ambassador and other 
people associated with dealing with all different ministries in 
the Government of Mexico, almost uniformly we heard positive 
feedback in terms of the level of cooperation that we are 
getting from the Mexican Government in general.
    Now, of course, like any other place, there are some 
agencies within the Mexican Government that are a little more 
reticent than others in terms of working with us. But, overall, 
we heard very positive comments from virtually everybody we 
talked to down there.
    Mr. Green. I know it is interesting, having traveled to 
Mexico it seems like my whole life, that joke about, ``We are 
from the government, here to help you.'' If you go down to 
Mexico and say, ``We are here from the United States and we are 
here to help you,'' it is a problem, although I have noticed in 
the last 2 years there has been so much more cooperation. And I 
think President Calderon's leadership has been there for that.
    In the GAO report, it shares that negotiating agreements 
between beneficiary governments in reaching understanding with 
the U.S. agency on implementation logistics can be time-
consuming. From your research, is there a more effective way 
for these negotiations to shorten that time? And is it on us or 
is it on the Republic of Mexico?
    Mr. Ford. I would say it is a little bit of both. Some of 
it is us. We just don't do a good job of--well, part of it is 
just setting good expectations. When we were down there in 
March, we talked to several Mexican Government officials who 
sort of felt like they were instantaneously going to get them 
equipment, or the U.S. Government said we were going to send 
them brand-new armored cars, and they would be there within a 
month or so, not realizing that it takes time for these things 
to happen. So part of it is basically setting good expectations 
with our partner.
    And then, in terms of the actual implementation, clearly, 
on our side there were delays, for lots of different reasons, 
some of which I articulated earlier. And then, I think on the 
other side, on the Mexican side, in some cases they weren't 100 
percent always clear about what exactly they wanted or what 
they really needed.
    And what they are doing at the Embassy to address this 
issue is they have established a formal working group with 
Mexican officials and U.S. officials. They are going to work 
together so these day-to-day problems can be resolved. 
Hopefully, that will help expedite the delivery of the 
assistance.
    Mr. Green. Okay. And I know the three bureaus have tracked 
the funds in the State Department--and you have discussed that. 
Is it possible for any of these agencies on the U.S. side to be 
merged, so we can see maybe fewer decision-makers and more 
decisions being made?
    Mr. Ford. Yeah, I think that--well, first of all, let me 
say this: The State Department recognizes they have this 
problem, that they cannot readily track the moneys, that they 
have sort of a fragmented approach. They have indicated to us 
they are going to try to address that, or they are in the 
process of trying to address it, by coming up with a more 
streamlined system. We haven't yet seen that, so I can't really 
comment on it, in terms of whether I think that is going to fix 
the problem.
    But the fact that they recognize that they need to put 
something together that will provide more real-time information 
to Congress on what is really going on I think is a step 
forward. The real key is, can they really implement something 
that will allow you all to get information on everything that 
is going on? Right now, it is fragmented.
    Mr. Green. Thank you, Mr. Chairman.
    My frustration, I guess, is that this has been going on, 
and I know it was a President Bush initiative, but I would hope 
we would see much more quicker response on the United States's 
part, because this problem is in Mr. Cuellar's district, in my 
district, and it will be in New York, and of course Mr. 
McCaul's district in central Texas. And if we don't help our 
neighbors in Mexico, it will surely be in our backyard.
    Mr. Engel. Well, thank you. I certainly agree. And we will 
keep exploring this. Thank you, Mr. Green.
    We have been joined by Ms. Giffords of Arizona. And I am 
going to give her an extra minute so she can incorporate her 
opening statement into her questions.
    So, Ms. Giffords, you have 6 minutes.
    Ms. Giffords. Thank you, Mr. Chairman.
    And, Mr. Ford, thank you for joining us today.
    It is interesting, when you look back from the first 
conversations we had a couple of years ago under the former 
administration about the Merida plan, and we had a lot of 
questions and a lot of skepticism. And the challenge for us is 
how we support the Calderon administration, which is really 
doing some very heavy lifting in a very, very difficult 
situation, but also having the ability to go to back to our 
constituents and our taxpayers, those of us who actually live 
on the border, and explain and justify to them this 
extraordinary amount of money that we are, of course, sending 
to Mexico.
    I come from the worst part of the district, so if I sound a 
little angry, it is because I am. I represent half of the 
Tucson sector, which, by far--about 10 years ago, we had over 
700,000 apprehensions. And last year we were down to 242,000 
apprehensions, but over 1.2 million pounds of marijuana was 
actually seized in my sector.
    And when people say that the border is more secure now than 
it has ever been, I beg them to come down and actually talk 
directly to my constituents, to the ranchers out in Cochise 
County, to the Krentz family, who had a family member that was 
murdered on his own land, and explain how much safer it is, 
when their property values have absolutely plummeted and they 
don't feel safe.
    So the challenges we have--and I was fortunate to have the 
chairman of the Homeland Security Committee with us a couple of 
weeks ago down for a border tour and for a chance to spend time 
with the ranchers and to do a rancher town hall meeting, for 
the chairman to hear directly about what is working and what is 
not working. And, with that, we had the sector chief of the 
border patrol alongside.
    And so, my questions--and, again, I know we are talking 
about different programs; we are talking about north side of 
the border and south side of the border. But the reality is, it 
is all one big area when it comes to drugs that are moving up 
northward and we have cash and arms going in the other 
direction. And if we are going to get operational control of 
the border, we are going to have to think bilateral.
    And so my question to you is, what sort of coordination is 
going on with the expenditure of the Merida money and the plans 
with the sector chiefs, particularly in the worst areas of the 
border?
    Mr. Ford. Okay, that is a very good question. Here is my 
challenge in answering that. We know that there are a lot of 
efforts between our Government and Mexico on the border being 
undertaken primarily with DHS, ATF, the law enforcement 
community, State and local government. Many of those 
activities, as far as we know, are not really connected to the 
Merida program in terms of the assistance that we are providing 
to Mexico.
    There are some programs that are directly related to the 
border, such as providing communication equipment. For example, 
the Department of Defense is providing communication equipment 
to their counterparts. ATF is running their gun-runner program, 
which is on the border. ICE has their gun program and their 
anti-smuggling programs.
    A lot of those efforts, to our knowledge, are not directly 
associated with the Merida program. So I can't answer your 
question holistically in terms of what our Government is doing 
on the border. I know there are lots of things going on. We 
didn't study in detail many of those other programs for this 
particular job that I am reporting on.
    But to the extent we had information about what we are 
providing to the Mexican counterparts--like, the customs 
service, we are giving them equipment; we are providing canine 
units to prevent smuggling--that should work for both sides of 
the border, there are a number of things we are financing with 
the Merida money.
    But it is only part of, I think, your broader question, 
which is, what is the government as a whole doing to protect 
the border? And I don't know enough about how to answer that 
for the whole government. But I will say, for the Merida 
program, there are programs designed to help address the border 
specifically, not just the broader going after the drug 
traffickers.
    Ms. Giffords. Mr. Chairman and Mr. Ford, you know, when you 
are actually on the front line and you have spend a lot of time 
with the law enforcement agents and the border patrol and the 
people that live there, you know, it becomes pretty--and then 
you look at the numbers, and the numbers just speak for 
themselves.
    You know, the Tucson sector has more than all of the other 
areas combined, when it comes to seizures of narcotics. So, 
there is potential on all sorts of coming in from the Canadian 
border or on the coasts, but the reality is it is coming 
through Arizona right now in huge, huge numbers.
    So with the deployment of the National Guard that is going 
to start in a couple of weeks, we are spending a lot of money 
on bringing the Guard in. We have a huge supplemental we are 
waiting to have the Senate pass through with $700 million, as 
well, that is going to go toward increased Border Patrol and 
ICE agents and, you know, a huge increase of resources.
    But if the coordination isn't taking place--and I beg 
people to come down, drive along the border, and see if you see 
one Mexican vehicle patrolling--one. I mean, of all of the time 
that I have been in Congress and all the time I spend out 
there, I have never seen one vehicle on the other side of the 
border--not one camera, not one radar system, not one balloon, 
not any type of surveillance.
    So, you know, the numbers speak for themselves. You know, 
we are spending a lot of money, and I am not saying it is a 
waste. I am just saying that we know where the drugs are coming 
in, because we can just estimate by the seizures that we have. 
Yet, here we are spending money. We have DOD money, we have 
Department of State money, we have DHS money, we have a lot of 
money flowing. But when you talk to my sector chief that is on 
the front lines, he is not being asked, you know, ``Should we 
put the resources south of Douglas or south of Nogales?'' No 
one is talking to him.
    And that is where I just--I don't get it. I don't know how 
we can sit here and, with straight faces, talk about why this 
is a good program if that just on-the-ground coordination is 
not taking place.
    Mr. Ford. You know, I don't know what to say. I mean, 
again, part of the reason we think that they need to develop 
these metrics we talked about is so that you can get an answer 
to that question. Right now, I don't see any way how the 
administration can answer that because they don't have a way of 
saying whether or not the border effectiveness, from the 
Mexican side, is being improved because of our money. There is 
no way for us to know that, at this point.
    Ms. Giffords. And, Mr. Chairman, you know, I would love to 
work with you and others to figure this out. Because, 
obviously, this is an extraordinary sum of money that we are 
spending to secure the border and to try to reduce the amount 
of drugs that are smuggled in. But if we don't have the metrics 
and if we don't have a coordinated plan, then I would argue 
that we need to rethink this.
    Mr. Engel. Well, let me just say, Ms. Giffords, I would be 
delighted to work with you. As you well know, I have a Tucson 
connection, with my son graduating from the university there. 
And I am hoping that your constituents do know that you are 
doing an excellent job fighting for these things. And I do hope 
we can have that hearing in Tucson or around Tucson before the 
end of the year. So I look forward to working with you on that.
    As you can tell, we have been called for a vote, but we 
have been joined by Mr. Meeks of New York, who says he has one 
quick question before we adjourn.
    Mr. Meeks. Thank you, Mr. Chairman.
    And my question is not exactly like the gentlelady from 
Arizona's, but it is similar in regards to coordination. We 
know that when we initially started talking about Plan 
Colombia, we had to work out some things, and I think, finally, 
we have it working.
    But coordination is the key to success. And I know that we 
have initiatives now in Central America and initiatives in the 
Caribbean. And some argued against the Merida money initially 
because they say what happens is you close it off at one end 
and the drugs will come through another end.
    So I am wondering whether or not you are also looking at 
the coordination between Central America and the Caribbean, so 
that it is not that, you know, one end going one way, then it 
goes someplace else, all still coming into the United States. 
And where it is Arizona that may have the key problem today, 
but it could be Florida tomorrow.
    Is there any coordination between the Merida Initiative and 
the Caribbean and Central America? That is my question.
    Mr. Ford. Okay. The short answer is I don't know, because 
the CARSI program that has been announced, the administration 
hasn't put its strategy out yet for that, so we don't know 
exactly what we are trying to do there. We don't know who is 
going to exactly administer the program.
    The Caribbean Basin Security Initiative, which I presume is 
linked to that, same thing: We don't quite know what the 
strategy is and what the implementing pieces of that are going 
to be.
    The Southwest Border Counternarcotics Strategy that was 
promulgated by the Office of National Drug Control Policy, 
which involves many U.S. agencies on the border designed to 
stop the flow of arms, bulk cash, and other things, we are not 
quite sure who is responsible for coordinating that, along with 
these other initiatives.
    So my answer to that is, I think it is important that 
Congress ask the administration how they plan to coordinate all 
of these security initiatives. There may be a notional idea of 
how they plan on doing it, but we haven't seen it. And so I 
don't know how to answer that.
    If you are asking me, do you think we have a coordination 
mechanism in place, I don't know that, at this stage.
    Mr. Meeks. Thank you.
    Mr. Chairman, you know, I was and am a big supporter of 
Merida, but we have to make sure that we know how the money is 
being spent and that it is being coordinated so that we know 
that we are getting the best bang for our buck. Otherwise, we 
need to rethink what we are doing, because if it is not doing 
anything, we don't need to just throw money away.
    So I would join Ms. Giffords in that vein, in saying, if we 
are doing it and we are doing it right, I am all for it, let's 
do it. But if not, then we need to rethink what we are doing.
    Mr. Engel. Well, thank you, Mr. Meeks.
    Mr. Ford, I want to thank you for your very excellent 
testimony. I actually agree with everything you have said, as I 
have agreed with everything that has been said up here. I think 
we are all in sync on this and we realize how important it is, 
in terms of making sure that Mexico gets the help it needs but 
making sure that, when we send the help, it is being used 
properly. And I think we all have a stake in that. So I want to 
thank you for testifying.
    I want to thank Mr. McCaul for ably filling in for Mr. Mack 
today. And Mr. McCaul, of course, is always a very valued 
member of this subcommittee, as well.
    So, again, Mr. Ford, we look forward to continuing this 
discussion with you.
    And the subcommittee hearing is now adjourned.
    [Whereupon, at 3:44 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Mack statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Smith statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFR--Engel deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________

[Note: The GAO Report to Congressional Requesters, ``MERIDA INITIATIVE, 
The United States Has Provided Counternarcotics and Anticrime Support 
but Needs Better Performance Measures,'' was submitted for the record 
but is not reprinted here. It is available in committee records or may 
be accessed via the Internet at: http://www.hcfa.house.gov/111/
GAO072110.pdf.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
